ROBERT C. ANDREWS, zsourg,p.c.

117 Auburn Street Suite 201 rob.andrews.esq@gmail.com
Portland, Maine 04103
207-879-9850, 207-879-1883 fax

 

July 16, 2021

Clerk

United States Supreme Court
1 First Street, NE
Washington, DC 20543

in re: Brian K. Rogers v.
United States

Dear Clerk:

Please find enclosed the following document for filing:

1. original and ten copies of the petition for writ of certiorari
2. 11 appendixes
3. Proof of service

Thank you for your attention to this matter. Please call me if you have any questions.
2
Mie C. Andrews, ae

RA: me
enc.
IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

NO.

BRIAN K. ROGERS
Petitioner

ve.

UNITED STATES OF AMERICA
Respondent

PROOF OF SERVICE

STATE OF MAINE }
COUNTY OF CUMBERLAND }

DEPOSITOR, being first duly sworn, deposes and says:

That on July 16, 2021, within the time required by rule, a Petition for Writ of Certiorari in the
above entitled case was deposited in a United States Post Office mail box located in the City of Portland,
State of Maine, with first class postage prepaid, properly addressed to:

Clerk of the United States Supreme Court
1 First Street, NE
Washington, DC 20543

And that copies were also served upon Counsel for the Respondent:

Julia Lipez, AUSA
100 Middle Street, East Tower, Suite 6
Portland, ME 04101

And

The Solicitor General of the United States
United States Department of Justice

950 Pennsylvania Ave NW,

Washington, DC 20530

    

Robert C. Andrews,
Depositor, Affiant
117 Auburn Street, Suite 201
Porttand, ME 04103

Subscribed and Sworn to Before Me
This 16th day of July 16, 2021

 
  
 

SRITTE BARTON
Notary Pudtie- Maine

My Commission Expires
- March 1.2025

 

 

   
